                    Office of Inspector General
                   Corporation for National and
                            Community Service




    Semiannual Report
      to Congress
October 1, 2006 - March 31, 2007
      Fiscal Year 2007 Semiannual Report No. 1




  1201 New York Avenue, NW, Suite 830
         Washington, DC 20525
       Telephone (202) 606-9390
        Facsimile (202) 606-9397
         Hotline (800) 452-8210
       Website: www.cncsoig.gov
                                                           April 30,2007



        I am pleased to present our Semiannual Report to Congress and share with you the results of the
Office of Inspector General's (OIG) audits, investigations and proactive initiatives for the period October
1,2006, through March 3 1,2007.

        During this reporting period, the OIG Audit Section issued 12 reports on a wide variety of
Corporation operations, programs and grantees which identified more than $1 million in questioned costs.
Our Investigations Section closed 30 cases, opened 37 new actions, referred 10 cases to the U S .
Department of Justice for criminal and/or civil action, and already has recovered more than $44,000 in
taxpayer funding while identifying an additional $2.59 million in potential recoveries that can be
reinvested in national service.

       We also continued our proactive efforts to improve the OIG's efficiency and effectiveness by
upgrading our information systems and security and fully implementing a new performance-based
employee appraisal system.

        Upon taking office in January, I launched an outreach effort to the US. Department of Justice
with the goal of having more of our cases accepted for criminal prosecution by United States Attorneys.
In the past, too many of our cases have been declined on the ground that the acts of wrongdoers, most of
whom admitted their guilt, involved so-called "low-dollar amounts." I firmly believe that is the wrong
message to send. Because the Corporation's operations are primarily community service, relatively small
amounts can be involved at each site. Dishonest diversion of funds deprives the needy and damages the
reputation of the program. The knowledge that such defalcations are prosecuted deters similar
wrongdoing.

        Our outreach includes improved presentations of cases referred to United States Attorneys,
personal contact with Federal prosecutors, and an effort to educate Justice Department personnel on the
Corporation and its programs, the mission of the OIG and the crucial role successful prosecutions play in
o w efforts to deter additional waste, fraud and abuse.

         While proud of our achievements for this period, I am deeply concerned that the OIG may not be
able to sustain this level of effort. The proposed OIG Budget for Fiscal Year 2008 will, if unchanged,
result in a 20 percent reduction in our resources from the Fiscal Year 2006 level. Such a cut would have
its biggest impact on our ability to continue to conduct contracted audits, including even the random
audits of ArneriCorps programs mandated by Congress.




                                                           Gerald Walpin
                                                          Anspector General


                          1201 New York Avenue, NW    *Suite 830, Washington, DC 20525
                            202-606-9390  *                         *
                                           Hotline: 800-452-8210 www.cncsoig.goy

                              Senior Corps   * ArneriCorps *   Learn and Serve America            Make o Difference.Valuntear.
                                                                                                        Table Of Contents

Executive Summary ............................................................................................................................. 1

       Proactive Initiatives ..................................................................................................................... 1
       Audit Section ................................................................................................................................ 1
       Investigations Section................................................................................................................. 1
       About The Office Of Inspector General ..................................................................................... 2

Proactive Initiatives .............................................................................................................................. 5

       OIG Management Initiatives........................................................................................................ 7
       Outreach and Education ............................................................................................................. 9

Audit Section....................................................................................................................................... 11

       Summary of Audits .................................................................................................................... 13
       Financial Management and Corporation Operations ............................................................. 13
       Grant Management and Oversight ........................................................................................... 14
       State Commission Audits ......................................................................................................... 14
       AmeriCorps National Direct Grant Audits ............................................................................... 15
       Senior Corps Grant Audits........................................................................................................ 16
       OMB Circular A-133 Quality Control Review........................................................................... 16
       Audit Resolution ........................................................................................................................ 16
       Proposed Management Decisions ........................................................................................... 17
       PMDs with Which the OIG Disagreed ...................................................................................... 18
       Notices of Final Action .............................................................................................................. 18

Investigations Section ....................................................................................................................... 21

       Summary of Cases..................................................................................................................... 23
       Cases Closed This Period With Significant Findings ............................................................ 24
       Highlighted Ongoing Investigative Activity ............................................................................ 26

Review of Legislation and Regulations............................................................................................ 33

       Criminal Background Checks................................................................................................... 35
       Program Fraud Civil Remedies Act.......................................................................................... 35
       E-Mail And Other Records Retention Policies ........................................................................ 36

Statistical and Summary Tables ....................................................................................................... 37

       I.       Inspector General Act Reporting Requirements........................................................... 39
       II.      Reports With Questioned Costs ..................................................................................... 40
       III.     Reports With Recommendations That Funds Be Put To Better Use .......................... 41
       IV.      Summary of Audits With Overdue Management Decisions......................................... 42
       V.       Reports Described in Prior Semiannual Reports Without Final Action...................... 43
                                                                    Executive Summary


 Executive Summary
Proactive Initiatives
 The Office of Inspector General (OIG) continued to take a proactive stance by undertaking numerous
 initiatives to improve its effectiveness and efficiency and to provide the Corporation for National and
 Community Service (Corporation) with timely advisories and information on key issues involving its
 programs and operations. During this reporting period, the OIG launched an outreach program to the
 U.S. Department of Justice in an effort to have more of its cases accepted for Federal criminal
 prosecution. In an effort to counter arguments by United States Attorneys that many OIG
 investigations fail to meet their “dollar-amount threshold” for prosecution, the outreach and education
 effort is based on the premise that there is no such thing as a small fraud. Also during this period,
 OIG investigators uncovered widespread abuse of the Corporation’s child care benefit programs for
 volunteers and began developing recommendations to improve controls and oversight. We also fully
 implemented an Employee Performance Management appraisal program that directly links
 compensation to performance and OIG strategic goals.


Audit Section
 During this reporting period, the OIG Audit Section conducted audit and other work to improve the
 operations of the Corporation and issued 12 reports that identified more than $1 million in questioned
 costs. At the close of this reporting period we had the following 12 assignments in process.

     Senior Corps Audits

     •   Council on Aging of Volusia County, FL
     •   Red Cross of Metro New Jersey

     AmeriCorps Audits

     •   Mississippi Commission
     •   Arkansas Commission
     •   District of Columbia Commission
     •   Texas Commission
     •   Kansas Commission
     •   United States Veterans Initiative, National Direct Grant
     •   United States Veterans Initiative, Education Award Grant

     Corporation Operations

     •   Review of Compliance with Homeland Security Presidential Directive 12
     •   Review of New Grantee Financial Management Surveys
     •   Review of Seven Corners Health Benefits Administration Claims Processing Contract


Investigations Section
 The OIG Investigations Section continued to investigate allegations of fraud, waste, and abuse of
 taxpayer dollars in Corporation programs and operations. During this reporting period, the
 Investigations Section received and processed 54 Hotline contacts, opened 37 investigative actions,
 and closed 30 actions. Ten matters were referred to the U.S. Department of Justice for prosecution.
 Thirty-two other matters were referred to Corporation management and State commissions for action.


 October 1, 2006 – March 31, 2007                                                                 1
Executive Summary

 Investigators were responsible for recovering $44,186.22 in Corporation funds and $9,450 in cost
 avoidance. Based on information presented to the Corporation, management debarred six
 individuals. In addition, ongoing OIG investigations have identified $2.59 million in potential
 recoveries.


About The Office Of Inspector General
 In 1993, Congress created the Corporation for National and Community Service (Corporation), along
 with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
 U.S.C. §§ 12501-681 (2004)). Our office is independent of the agency it oversees. Led by a
 presidential appointee, we conduct audits and investigations of Corporation programs, including
 AmeriCorps, Volunteers In Service to America (VISTA), the National Civilian Community Corps,
 Learn and Serve America, and Senior Corps.

 The OIG also examines Corporation operations, State community service programs that receive and
 distribute the majority of Corporation grant funds, and local recipients of subgrants.

 Based on the results of our audits, investigations and reviews, the OIG recommends Corporation
 policies to promote economy and efficiency. We also strive to prevent and detect waste, fraud and
 abuse of taxpayer dollars that have been invested in National Service.

 This semiannual report, as required by the Inspector General Act of 1978, details our work for the first
 six months of Fiscal Year 2007. It is being transmitted to the Chief Executive Officer of the
 Corporation, the Corporation’s Board of Directors, and Members of Congress. It will also be made
 available to the public.

 All of our work is conducted in strict adherence to the Privacy Act and the Freedom of Information
 Act. Our efforts are often aided by information supplied via the OIG Hotline (800-452-8210). The
 Hotline allows Corporation employees, grantees, program beneficiaries, and others to report
 concerns and suspected fraud.

 For more information on the OIG and its work, please visit our Internet website: www.cncsoig.gov, or
 telephone us at (202) 606-9390.




 2                                                            October 1, 2006 – March 31, 2007
           CORPORATION FOR NATIONAL AND
                COMMUNITY SERVICE

  OFFICE OF INSPECTOR GENERAL

                            Hotline

                                        We Want You to
                                      Report Fraud, Waste
                                         and Abuse!




                   ♦    All information is confidential.

                   ♦    You may remain anonymous.


              1-800-452-8210
Contact us by e-mail:                                Visit our web page:
hotline@cncsoig.gov                                   www.cncsoig.gov

                                 Or write:

                           OIG HOTLINE
  Corporation for National and Community Service
       1201 New York Avenue NW, Suite 830
               Washington, DC 20525
                                       Proactive Initiatives
                   In its ongoing effort to prevent and detect fraud, waste
                   and abuse in a timely manner, the Office of Inspector
                   General has taken a proactive stance to alert and inform
                   Corporation management and its national service
                   partners of issues and current and potential problems.
                   Our initiatives include analyses and reports by our Audit
                   and Investigations Sections, management advisories
                   and other communications, and outreach to all
                   Corporation stakeholders through our information and
                   education programs. OIG management has also
                   developed a number of initiatives during this reporting
                   period to improve performance and efficiency and to
                   enhance employee job skills.




October1, 2006 – March 31, 2007                                         5
                                                                    Proactive Initiatives

OIG Management Initiatives
 Outreach to the U.S. Department of Justice: During this reporting period, Inspector General
 Gerald Walpin launched a concerted effort to increase the number of OIG cases that are accepted by
 United States Attorneys for prosecution. In the past, many OIG cases, including those in which the
 targets have confessed their guilt, have been turned down for Federal prosecution due to the low
 dollar amounts involved in the offenses.

 In his effort to bring sanctions on all wrongdoers, Mr. Walpin worked with the Investigations Section to
 improve the presentation of cases that are referred to United States Attorneys. Mr. Walpin also made
 personal contact with prosecutors in several key cases.

 The OIG is further working to educate Federal prosecutors on the role and the work of the OIG, the
 Corporation’s programs and, most importantly, the devastating impact a so-called “low-dollar
 amount” crime can have on both national and community service and the OIG’s ability to deter waste,
 fraud and abuse of taxpayer dollars. This effort strongly endorses the premise that “there is no such
 thing as a small fraud.”

 Child Care Fraud: Developing and expanding leads from a single case, OIG investigators
 uncovered widespread abuses of child care benefits by members of AmeriCorps and VISTA in the
 State of Michigan. The investigation, which involved an extensive review of both State and Federal
 child care benefit records, found that 12 members illegally received AmeriCorps Care or VISTA Care
 benefits while concurrently receiving child care support payments from the State of Michigan. The
 loss to the U.S. Government is estimated at more than $120,000. Corporation-supported volunteers
 are barred from receiving child care benefits from more than one source and are required to sign
 enrollment documents attesting to their understanding of this regulation.

 Working closely with an OIG investigator, the local Assistant United States Attorney agreed to handle
 one case with a pretrial diversion. The State’s attorney agreed to prosecute 11 other members on
 State welfare fraud charges. During this period, four of those 11 members plead guilty and were
 awaiting sentencing.

 This investigation also disclosed oversight weaknesses in the AmeriCorps Care and VISTA Care
 programs that could result in additional abuses of the Corporation’s child care benefit programs,
 which are administered by the National Association of Child Care Resources and Referral Agencies
 (NACCRRA). During this reporting period the OIG began developing recommendations designed to
 prevent abuses by precluding the receipt of child care benefits from more than one source. These
 recommendations will be presented to Corporation management.

 Forensic Investigations: During this reporting period, the OIG Investigations Section fully employed
 its new Forensic Investigation Laboratory as a tool against computer-related crime. OIG agents, who
 have undergone specialized training, utilize forensic software and equipment to capture mirror images
 of the information contained on computer hard drives. The data is then mined to reveal financial data,
 e-mails, images and other documents which may be linked to instances of fraud, waste and abuse.
 Capturing a mirror image of hard–drive data is crucial to maintaining the integrity and admissibility of
 evidence. During this reporting period, the OIG added new technology to allow for the mirror-imaging
 of laptop computer hard drives. The lab and investigative tools also played significant roles in several
 OIG investigations of abuse and misuse of Corporation information systems.

 Statutory Law Enforcement Authority: During this reporting period, the OIG Investigations Section
 fully implemented its expanded law enforcement authority. It empowers OIG Agents to make arrests,
 seek and execute arrest and search warrants, and carry firearms in the course of their official duties.
 The authority, approved in early 2006 by the Department of Justice, lessens agents’ reliance on local
 police and other officials for backup and makes them more efficient while in the field probing
 allegations of fraud, waste and abuse of Federal funds. During this period, construction was



 October1, 2006 – March 31, 2007                                                                   7
Proactive Initiatives

 completed on a new secure storage area for weapons and evidence. Also, specialized equipment
 was issued to agents, who underwent extensive firearms and safety training.

 Employee Performance Management Program: During this reporting period, OIG senior managers
 completed implementation of the OIG’s employee appraisal program. Reviews were completed for all
 employees under the system, which directly links compensation to performance and positive results.
 The Performance Management Program is a yearlong, continuous, and collaborative process that
 evaluates the “whole” employee on his or her contribution to achieving the OIG’s mission and
 organizational goals. The performance management cycle, which replaced the old “pass-fail” method
 of evaluating employees, runs from January 1 through December 31. It includes performance
 planning, monitoring employee performance, developing employees’ knowledge and skills through
 training, and rating and rewarding performance.

 Technology Upgrades and Enhancements: Under the leadership of the Chief Technology Officer,
 the OIG continued to implement a network improvement plan that will transform the OIG’s computer
 network into a Real-time Information Management System capable of seamlessly collecting,
 processing and providing data. Phase 2 of this program was launched during this reporting period,
 during which the OIG Management Information System Team (MIST) met with several vendors to
 evaluate their products.

 MIST, which includes OIG investigators, auditors and support personnel, is now in a position to make
 recommendations regarding the design of a new system. Unfortunately, current and anticipated
 funding constraints will delay the implementation of this system. MIST is also evaluating other
 desktop operating systems, specifically Mac OS-X, as an efficient and secure alternative to our
 current Windows desktop platform.

 The OIG also began implementation and testing of a new remote, encrypted, two-factored user
 access system. It is consistent with the Office of Management and Budget (OMB) requirement,
 contained in OMB Memorandum 06-016, regarding remote access and encryption. The new system,
 which will be fully implemented during the next reporting period, provides OIG employees with a safe,
 secure and easy-to-use method of remotely accessing the OIG network and sensitive documents
 while working in the field or telecommuting.

 Areas For Improvement: During the previous reporting period, Corporation management requested
 that the OIG identify areas of operations and policies that were in need of improvement. We
 reviewed all previous OIG audits, reviews, and investigations and identified five areas for
 management improvement, including corrective actions, training and institutional knowledge,
 monitoring and grantee accountability, information technology and human capital.

 During this reporting period, these findings were submitted to the President’s Council on Integrity and
 Efficiency and the Executive Council on Integrity and Efficiency for inclusion in the Management
 Challenges section of the Federal Inspectors General Fiscal Year 2006 “Progress Report to the
 President.” The report, issued in March 2007, showed that all five areas identified as in need of
 improvement by the OIG aligned with the major management challenges cited by the Federal
 Inspector General community.

 Staff Training: The OIG continued to conduct an ambitious and wide-ranging staff training program,
 with the goal of having each employee complete a minimum of 40 hours of professional development
 each calendar year. OIG management and staff utilized the Federal Law Enforcement Training
 Center, Inspector General Auditor Training Institute, Inspector General Criminal Investigator Academy
 and numerous other training providers. Topics ranged from criminal investigations and firearms
 training to professional development courses on the latest government standards and other audit
 procedures. In addition, OIG staff conducted classes for their peers on legal issues, investigative and
 audit procedures and report writing. By capitalizing on in-house skills, the OIG can offer training that
 is cost-effective and can be tailored to meet immediate and changing needs.




 8                                                            October 1, 2006 – March 31, 2007
                                                                    Proactive Initiatives

Outreach and Education
 Fraud Awareness Briefings: The OIG continues to provide Corporation, grantee and subgrantee
 employees, and volunteers with information on how to identify, prevent and report waste fraud and
 abuse of taxpayer-funded resources. Investigators and OIG senior managers regularly provide these
 multimedia briefings as part of their field assignments and also provide them to meetings and training
 sessions conducted by Corporation grantees and other national service stakeholders. Topics include
 the role and mission of the OIG, common types of program fraud, and how to detect and report
 suspected abuses. In addition, OIG auditors gave field briefings to grantee officials on audit
 procedures and requirements, and leading causes of questioned and un-allowed costs. During this
 reporting period, we conducted Fraud Awareness Briefings and Audit Training Sessions involving
 several hundred volunteers, Corporation employees and grantee and subgrantee officials.

 “For Your Inspection (FYI)”: During this reporting period, we published two editions of FYI, our
 quarterly newsletter that highlights the mission and work of the OIG and offers in-depth information on
 key issues facing the Corporation and its grantees. During this reporting period, FYI featured articles
 introducing new Inspector General Gerald Walpin and highlighting his concerted effort to obtain
 sanctions against all persons who commit fraud against the Corporation and its programs. FYI is
 widely distributed, in print and electronically, to Corporation employees, grantees, volunteers and
 other stakeholders.




 October1, 2006 – March 31, 2007                                                                  9
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation. The
                   Audit Section’s responsibilities include auditing the
                   Corporation’s annual financial statements, assessing
                   the Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing grants, contracts,
                   and cooperative agreements funded by the Corporation.




October 1, 2006 – March 31, 2007                                       11
                                                                                          Audit Section


Summary of Audits
 During this reporting period, the OIG Audit Section issued 12 reports on a wide range of topics. Our
 work included audits of the Corporation’s Financial Statements for Fiscal Year 2006, the annual
 FISMA evaluation, State Commissions, and Senior Corps and National Direct grantees.




                                             Audit Reports Issued
                                        October 1, 2007 – March 31, 2007
  Report                                                                    Dollars       Dollars      Funds Put To
                                   Report Name
  Number                                                                   Questioned Unsupported Better Use
                                                                                    (Dollars in thousands)
   07-01   Audit of the Corporation’s Fiscal Year 2006 Financial             $N/A          $N/A            $N/A
           Statements
   07-03   Audit of the Corporation’s National Service Trust Schedule of        0            0             0
           Fiscal 2006 Budgetary Resources and Obligations
   07-04   Audit of Grants Awarded to the Utah Commission on                   99           49             0
           Volunteers
   07-05   Audit of Grants Awarded to the Maryland Governor's Office on       461           306           162
           Service and Volunteerism
   07-06   Agreed -Upon Procedures Engagement Kansas Big Brothers              98           98             0
           Big Sisters, Inc.
   07-07   Audit of Grants Awarded to Volunteer Florida                       442           262            66
   07-08   Audit of Grants Awarded to Public Allies, Inc.                      73            1             73
   07-09   Fiscal Year 2006 FISMA Independent Evaluation                      N/A           N/A           N/A
   07-10   Audit of Grant Awarded to Home Instruction for Parents of           20           18             29
           Preschool Youngsters, USA
   07-11   Quality Control Review of Cocchiaro & Associate's OMB              N/A           N/A           N/A
           Circular A-133 Audit of Catholic Network of Volunteer
           Services FY 6/30/2005
   07-12   Follow-up Assessment of the AmericCorps Enrollment                 N/A           N/A           N/A
           Procedures
   07-13   Agreed-Upon Procedures of Grants Awarded to Teach for                0            0            138
           America
                                       TOTAL                                 $1,192        $733           $469



Financial Management and Corporation Operations
 Audit Report 07-01 – Fiscal Year 2006 Financial Statements Audit

 The auditors issued an unqualified opinion on the Financial Statements, noted one noncompliance
 with laws and regulations and one reportable condition. The Corporation concurred with some, but
 not all, of the audit results.




 October 1, 2006 – March 31, 2007                                                                              13
Audit Section

 Audit Report 07-03 – Audit of the National Service Trust Schedule of Fiscal Year 2006
 Budgetary Resources and Obligations

 The auditors opined that the schedule was fairly presented.

 Report 07-09 – Federal Information System Management Act (FISMA) Independent Evaluation
 for Fiscal Year 2006

 The report noted significant improvement over FISMA 2005 compliance. There were no significant
 findings, but the reviewers did have 15 recommendations for improving the Corporation’s security
 posture.

 Report 07-12 – Follow-Up Report on the Implementation of New AmeriCorps Enrollment
 Procedures

 We reviewed the Corporation’s corrective actions taken in response to the four recommendations
 contained in the OIG’s Interim Report on the Implementation of New Enrollment Procedures (Report
 04-05), issued on November 3, 2003. We found that the recommendations noted in the prior report
 have been implemented and that policies were adequate to ensure enrollment does not exceed slot
 availability, and to ensure compliance with the Strengthen AmeriCorps Program Act.


Grant Management and Oversight
 The Corporation awards grants to State and local governments, State commissions, institutions of
 higher education, and other not-for-profit organizations. Grantees are required to expend funds only
 for allowable costs and provide periodic reports to the Corporation to demonstrate programmatic and
 financial compliance with the terms of their grant agreements. The Corporation is responsible for
 ensuring that grantees comply with applicable laws and regulations for the administration of grant
 awards.

 The Audit Section conducts audits of Corporation grantees to assess whether reported costs are
 allowable under Federal regulations and whether grantees are complying with the terms and
 conditions of their awards. Our reports on Corporation grants also include recommendations for
 correcting deficiencies. Typically, the recommendations call for grantees to reimburse questioned
 costs, establish and implement policies and procedures to prevent future instances of noncompliance,
 and to improve internal controls. We also make recommendations for more effective Corporation
 oversight and improvements in grants management operations.

 During this reporting period, the OIG issued reports on three State commissions, three AmeriCorps
 National Direct Grantees and one Senior Corps grantee. The OIG also issued a Quality Control
 Review report on an OMB A-133 Audit.


State Commission Audits
 Audit Report 07-04 – Grants Awarded to the Utah Commission on Volunteers

 The Commission claimed costs of $2,120,532, of which the auditors questioned $98,966 as
 unallowable grant costs. The findings result from the Commission’s systemic problem with properly
 monitoring subgrantees’ fiscal activities. This same problem was cited in the Corporation’s May 2000
 Administrative Standards Review of the Commission and the OIG’s April 2004 pre-audit survey. Both




 14                                                            October 1, 2006 – March 31, 2007
                                                                             Audit Section

 reports found that the Commission’s monitoring of subgrantee financial management systems needed
 improvement. We also determined that the Commission’s procedures for recording and reporting
 match and in-kind contributions were inadequate, a determination that was also made in the OIG’s
 2004 report.

 Audit Report 07–05 – Grants Awarded to the Maryland Governor’s Office on Service and
 Volunteerism

 Funding authorized for these grants totaled $8.6 million, with costs claimed totaling approximately
 $5.7 million. The audit identified questioned grant costs of $461,086, match of $195,327 and
 education awards of $162,260. Most of the questioned costs were for unsupported member eligibility
 and unsupported match. The report also included seven findings and provided recommendations to
 improve compliance with grant requirements and to improve internal controls.

 Audit Report 07–07 – Grants Awarded to Volunteer Florida

 The grantees claimed costs of $11,992,968, of which the auditors questioned $441,639 as
 unallowable grant costs and $65,929 of education awards. The auditors also noted numerous and
 pervasive instances of noncompliance with provisions of Federal laws, regulations and grant award
 provisions.


AmeriCorps National Direct Grant Audits
 Audit Report 07-10 – Grants Awarded to Home Instruction for Parents of Preschool
 Youngsters, USA (HIPPY)

 The audit questioned $19,960 of claimed costs, including unsupported costs of $18,395 and $1,565
 for unallowable expenses. The auditors also questioned education awards of $29,275 for members
 due to lack of documents to support AmeriCorps member eligibility. The audit report included six
 findings and four recommendations to improve compliance with grant requirements and to improve
 internal controls.

 Audit Report 07-08 - Grants Awarded to Public Allies, Inc.

 The auditors questioned costs of $72,518, primarily due to member eligibility and compliance issues,
 such as proof of citizenship and completion of performance evaluations. Also questioned were
 education awards of $73,325 due to missing AmeriCorps eligibility documentation. The auditors also
 noted four findings on internal controls and compliance with grant terms.

 Report 07-13 - Application of Agreed-Upon Procedures to Grants Awarded to Teach for
 America

 The agreed-upon procedure testing was limited to tests of compliance with AmeriCorps member laws,
 regulations and provisions. Education awards of approximately $138,000 were questioned in most
 instances for lack of citizenship documentation and lack of required time sheets to support claimed
 service hours. The agreed-upon procedures noted nine findings on internal controls and compliance
 with grant terms relating to incomplete or missing member forms, late Web Based Reporting System
 (WBRS) submissions, and WBRS information not supported by required documentation.




 October 1, 2006 – March 31, 2007                                                             15
Audit Section

Senior Corps Grant Audits
 Report 07-06 – Application of Agreed-Upon Procedures to Grant Awarded to Kansas Big
 Brothers Big Sisters, Inc.

 The grantee claimed costs of $323,231. The auditors questioned $97,957 of expenditures charged to
 the grant agreements due to noncompliance with grant terms and conditions. There were also five
 internal control findings included in the report.


OMB Circular A-133 Quality Control Review
 Report 07-11 – Quality Control Review of the Cocchiaro & Associates’ OMB Circular A-133
 Audit of the Catholic Network of Volunteer Services, for Fiscal Year Ended June 30, 2005

 The report noted two errors with the A-133 audit. The CPA firm agreed that a mistake had been
 made in the report involving employee timekeeping and noted that the grantee now requires all
 employees to maintain timesheets, even if they are dedicated to work on one grant.


Audit Resolution
 The Corporation's audit resolution process under Corporation Policy Number 101, Audit Resolution,
 consists of six steps that culminate in a Management Decision (MD) and completion of a Notice of
 Final Action on any corrective measures that management deems appropriate.

 Step 1: The OIG issues a draft report and generally allows 30 days for comment. The OIG issues a
 final audit report after considering any comments received from the Corporation and the auditee.

 Step 2: Within six months of the OIG’s issuance of a final audit report, the Corporation issues a
 Proposed Management Decision (PMD), responding to the report's findings and recommendations.
 The PMD explains any corrective actions and provides a timetable for implementation. It also
 explains whether management disagrees with any of the report's findings and recommendations.

 Step 3: Within 30 days of receiving the PMD, the OIG may provide written comments and may
 initiate additional discussions with Corporation management if the OIG does not concur with the
 PMD. If the OIG concurs with the PMD, it is considered to be the Management Decision.

 Step 4: After reviewing any OIG comments, the Chief Financial Officer (CFO) issues a MD.

 Step 5: When all corrective actions in the MD have been completed, the Corporation issues a Notice
 of Final Action. Corrective actions should be completed within 12 months of the date the audit report
 was issued.

 Step 6: Audits for which Final Action was not completed within 12 months of issuance are included in
 the OIG’s semiannual report. The Corporation then provides comments on the status of these
 incomplete actions and forwards this information to Congress.




 16                                                         October 1, 2006 – March 31, 2007
                                                                            Audit Section

Proposed Management Decisions
 A Proposed Management Decision (PMD) is the Corporation’s response to an audit’s findings and
 recommendations, and outlines a plan for corrective action. If the OIG concurs with the PMD, it
 becomes the management decision. If the OIG disagrees with the PMD, the issues are discussed
 with the Corporation’s Chief Financial Officer, who is the Corporation’s designated Audit Follow-Up
 Official. During this reporting period, the Corporation issued PMDs on the following audit reports:

    •   05-17, Grants Awarded to the Louisiana Serve Commission

    •   05-18, Agreed-Upon Procedures of Grants Awarded to the Wyoming Commission

    •   06-05, Audit of Grants Awarded to the Puerto Rico Commission

    •   06-12, Audit of Grants Awarded to Education Works

    •   06-14, Audit of Grants Awarded to the New York State Commission

    •   06-16, Audit of Grants Awarded to City Year, Inc.

    •   06-17, Audit of City Year Subgrants Awarded through the Massachusetts Commission

    •   06-18, Audit of City Year Subgrants Awarded through the Michigan Commission

    •   06-19, Audit of City Year Subgrants Awarded through the Illinois Commission

    •   06-20, Audit of City Year Subgrants Awarded through the District of Columbia Commission

    •   06-21, Audit of City Year Subgrants Awarded through the Pennsylvania Commission

    •   06-22, Audit of City Year Subgrants Awarded through the Texas Commission

    •   06-23, Audit of Grants Awarded to the Massachusetts Commission

    •   06-25, Audit of Grants Awarded to the Illinois Commission

    •   06-26, Audit of Grants Awarded to the New Mexico Commission

    •   06-30, Audit of Grants Awarded to the Tennessee Commission

    •   06-33, Audit of Grants Awarded to the Oklahoma Commission

    •   06-36, Audit of Grants Awarded to Serve Idaho

    •   06-37, Audit of Grants Awarded to the Arizona Commission

    •   06-40, Review of the Corporation’s Office of Procurement Services

    •   06-42, Review of the Corporation’s Purchase and Travel Card Programs

    •   06-43, Review of the Corporation FEMA Hurricane Relief Mission Assignment Process




 October 1, 2006 – March 31, 2007                                                            17
Audit Section

      •   07-01, Audit of the Corporation’s Fiscal Year 2006 Financial Statements

      •   07-04, Audit of Grants Awarded to the Utah Commission

      •   07-06, Agreed-Upon Procedures Engagement Kansas Big Brothers Big Sisters

      •   07-09, Fiscal Year 2006 FISMA Independent Evaluation


PMDs with Which the OIG Disagreed
 The OIG did not entirely concur with the PMDs for Audit Report 05-17, Audit of Grants Awarded to the
 Louisiana Serve Commission; 05-18, Agreed-Upon Procedures to Grants Awarded to the Wyoming
 Commission for National and Community Service; and 06-12, Audit of Grants Awarded to
 EducationWorks.

 In the PMDs for both 05-17 and 05-18, the Corporation proposed allowing as match funds the value
 of Corporation-produced Public Service Announcements, for which the Corporation had used federal
 funds to produce, distribute and obtain air time. Giving the grantees credit for the value of these
 announcements, entirely financed with Corporation funding, effectively increases the grant amount by
 the Corporation funds attributable to creating the value of the announcements, and cannot be
 considered as match funds provided by the grantees. It appears that the Commissions failed to
 supply the match funds included in their budgets and then utilized the value of the PSAs as a
 substitute for the match funds originally budgeted.

 For audit Report 06-12, the Corporation allowed AmeriCorps members to serve as substitute
 teachers, thereby displacing employees in a school system’s pool of substitute teachers. AmeriCorps
 regulations do not allow AmeriCorps members to displace an employee.

 The Corporation’s Chief Financial Officer, who also serves as the agency Audit Follow-up Official,
 issued Management Decisions which affirmed the Corporation positions taken in the PMDs.


Notices of Final Action
 A Notice of Final Action is a Corporation management report indicating that it has completed corrective
 actions. During this reporting period, the OIG received Notices of Final Action on the following audit
 reports:

      •   05-18, Agreed-Upon Procedures of Grants Awarded to the Wyoming Commission

      •   06-04, Audit of Grants Awarded to Comprehensive Links for After School Enrichment

      •   06-07, Audit of Training and Technical Assistance Cooperative Agreements Awarded to CHP
          International, Inc.

      •   06-08, Audit of Grants Awarded to the Northwest Regional Educational Laboratory

      •   06-13, Audit of Cooperative Agreements Awarded to ETR Associates

      •   06-16, Audit of Grants Awarded to City Year, Inc.




 18                                                           October 1, 2006 – March 31, 2007
                                                                            Audit Section

   •   06-17, Audit of City Year Subgrants Awarded through the Massachusetts Commission

   •   06-18, Audit of City Year Subgrants Awarded through the Michigan Commission

   •   06-19, Audit of City Year Subgrants Awarded through the Illinois Commission

   •   06-20, Audit of City Year Subgrants Awarded through the District of Columbia Commission

   •   06-21, Audit of City Year Subgrants Awarded through the Pennsylvania Commission

   •   06-22, Audit of City Year Subgrants Awarded through the Texas Commission

   •   06-27, Audit of Grants Awarded to Virginia Commission

   •   06-28, Audit of Grants Awarded to the Habitat for Humanity International (Habitat)




October 1, 2006 – March 31, 2007                                                            19
                                   Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of
                   fraud, waste, and abuse in Corporation programs and
                   operations. The Investigations Section carries out these
                   responsibilities by investigating allegations of criminal
                   activities involving the Corporation’s employees,
                   contractors,    and    grant    recipients.      Criminal
                   investigations are presented to the U.S. Attorney or, in
                   some cases, the local prosecutor for criminal
                   prosecution and monetary recovery. Some investigative
                   reports are referred to Corporation management for its
                   administrative action or information.




October 1, 2006 – March 31, 2007                                       21
                                                                              Investigations Section


                                        Summary Of Cases
Opened and Closed
  Cases Open at Beginning of Reporting Period                                               35
  New Cases Opened                                                                          37
  Cases Closed this Period With Significant Findings                                        12
  Cases Closed this Period With No Significant Findings                                     18
  Total Cases Closed                                                                        30
  Cases Open at End of Reporting Period                                                     42

Referred*
  Cases Referred for Prosecution                                                            10
  Cases Accepted for Prosecution                                                            10
  Cases Declined for Prosecution                                                             4
  Cases Pending Prosecutorial Review                                                         0
  Cases Pending Adjudication                                                                24

Recommendations to Management
  Investigative Recommendations Referred to Management                                      32
  Investigative Recommendations Pending this Reporting Period                                7
  Investigative Recommendations Pending from Previous Reporting Periods                      0
*This includes cases refered for prosecution during the previous reporting period.



Summary of Cases
  At the beginning of this reporting period, 35 investigative actions were pending in the OIG
  Investigations Section. During this reporting period, OIG investigators opened 37 investigative
  actions and closed 30 investigations. Forty-two investigative actions were pending at the end of the
  period.




  October 1, 2006 – Mach 31, 2007                                                                23
Investigations Section

 Cases Closed This Period With Significant Findings

 Theft of Program Funds (02-028)

 Corporation management reported that the executive director of a grantee was diverting Corporation
 program funds to cover personal expenditures and business expenses that were unrelated to
 program operations. The investigation found evidence that the executive director and her spouse,
 who served as the program’s chief executive officer, had diverted more than $100,000 in Corporation
 funds.

 On June 19, 2006, the now-former executive director was found guilty of wire fraud and theft of
 Federal program funds. Her spouse was acquitted. On September 18, 2006, the former executive
 director was sentenced and received 33 months of confinement, was ordered to pay restitution in the
 amount of $100,536.88, assessed $600 in court fees, and ordered to serve three years of supervised
 probation upon her release from prison. Based on information developed by the OIG and presented
 to the Corporation, management debarred the former executive director, her spouse and their
 organization from participating in Federal contracts and grants for a period of three years.

 Violation of Voluntary Service Prohibition (06-039)

 A former employee reported that, following his retirement from Federal service, he worked in the
 Corporation’s Office of Human Capital (OHC) for several months as a contractor, but was never paid
 for his services. The investigation disclosed that an OHC employee failed to initiate a purchase order
 for the services provided by the former employee. This resulted in Corporation management having
 to ratify the transaction months after the services had been rendered. Management acknowledged
 that a lack of communication between OHC and procurement personnel caused a delay in the
 ratification and reported that it had provided additional training to the OHC employee on contract
 requirements.

 In connection with the same grant, another Corporation employee failed to comply with Federal
 Acquisition Regulation (FAR), Part 5, when he failed to publicize a $15,000 purchase order
 modification to the existing $25,000 OHC purchase order. Management disagreed with the OIG
 finding that the employee failed to comply with FAR, Part 5, stating it believed that the contract
 modification was within the scope and under the terms of the existing contract.

 Theft of Program Funds (05-030)

 Corporation management reported that a former VISTA member was employed during his VISTA
 service, in violation of his terms of service. The investigation found evidence that the VISTA member
 intentionally deceived program officials by claiming that he was volunteering at a local school when,
 in fact, he was employed at the school as a teacher. This allowed the VISTA member to receive
 more than $20,000 in Federal program funds, including his VISTA stipend, to which he was not
 entitled. The U.S. Department of Justice accepted this investigation on July 19, 2005, for civil
 prosecution. On July 26, 2006, a civil agreement was reached with the individual, who agreed to
 repay $8,500 of the $20,395 he wrongfully received. Based on information developed by the OIG and
 presented to the Corporation, management debarred the individual from participating in Federal
 contracts and grants for a period of two years.

 Theft of Government Services (Calling Card) (04-034)

 A Corporation employee reported an allegation that unknown persons were misusing a government-
 issued calling card. The investigation disclosed evidence that a former AmeriCorps member had
 obtained the calling card number during her term of service. After leaving the AmeriCorps program,
 the former member continued to utilize the calling card number to make personal telephone calls.
 Additionally, the member failed to safeguard the number, which was subsequently used by


 24                                                          October 1, 2006 – March 31, 2007
                                                               Investigations Section

unauthorized personnel at various locations throughout the United States. The U.S. Department of
Justice accepted this investigation for prosecution. On September 13, 2006, the individual accepted
pretrial diversion, received 18 months of probation and agreed to make restitution in the amount of
$1,420.48. Based on information developed by the OIG and presented to the Corporation,
management debarred the individual from participating in Federal contracts and grants for a period of
one year.


Fraudulent Receipt of VISTA Stipend (03-040)

A Corporation State Office employee reported that a VISTA member left the program but continued to
receive her living allowance, allowing her to collect a significant amount of Corporation funds to which
she was not entitled. The investigation found that the former member’s program failed to verify
member attendance and also failed to provide written documentation of member attendance in its
biweekly reports. The U.S. Department of Justice accepted this investigation on November 25, 2003.

On July 27, 2006, the former member entered a guilty plea to theft and was sentenced to 12 months
of confinement (suspended), fined $2,500 (suspended all but $250), 24 months of probation, made to
pay $25 in court costs and required to make restitution in the amount of $8,164.68. Based on
information developed by the OIG and presented to the Corporation, management debarred the
individual from participating in Federal contracts and grants for a period of two years.

Misuse of Employee Benefits / Violation of Agency Policy (06-057)

Proactive efforts by the OIG disclosed evidence that a Corporation employee received $1,740 in
commuter benefits when, in fact, the employee was not commuting as required under the
Corporation’s policy. Based on information developed by the OIG and presented to the Corporation,
the employee returned the unauthorized benefits and management took administrative action against
the employee.

Computer Fraud / Violation of Agency Policy (07-013)

A Corporation employee reported an allegation that Government contractor employees had attempted
to penetrate a Corporation database without authorization. Investigation found evidence that
contractor employees violated Corporation policy when they provided their logins and passwords to
other employees of their firm without authorization. After obtaining the logins and passwords, two
employees, working on the contract, attempted to penetrate the system’s servers from a remote
location outside the Corporation’s firewall. Entry was denied to the servers due to the system’s
security measures. The U.S. Department of Justice declined prosecution. This matter was resolved
administratively through the contract.

Violation of Grant Provisions (06-053)

An allegation was reported to the OIG Hotline that an AmeriCorps program executive director had
falsified AmeriCorps members’ time sheets. Investigation disclosed that the executive director
credited service hours to two members who provided service that was out of the scope of the grant’s
goals and objectives. There was no evidence that the executive director acted with criminal intent
when she certified the members’ service hours. Based on information developed by the OIG and
presented to the Corporation, management disallowed $10,651.25 in grant costs.

Violation of Agency Policy (07-006)

The OIG received an allegation that a Corporation employee was using his assigned Government
computer for a personal business. The investigation found evidence that the employee had violated
agency policy by misusing a Government computer for his real estate business. The employee also
downloaded an unapproved program to his Government computer. Based on information developed



October 1, 2006 – Mach 31, 2007                                                                  25
Investigations Section

 by the OIG and presented to the Corporation, management took administrative action against the
 employee.

 Theft of VISTA Healthcare Services (07-005)

 A Corporation employee reported that a former VISTA member fraudulently used her VISTA
 healthcare benefits after the early termination of her service. Investigation found evidence that due to
 a Corporation computer error the former member was allowed to receive $9,455.39 in healthcare
 services and prescriptions to which she was not entitled. The U.S. Department of Justice declined
 prosecution. Corporation management declined administrative recovery citing the former member’s
 mental health problems and her inability to make restitution.

 Violation of Agency Policy (07-031)

 The OIG received an allegation that a Corporation employee was using a Government computer to
 access prohibited websites. The investigation found evidence that the employee violated agency
 policy when the employee used her assigned login and password to allow a non-Corporation
 employee, her juvenile son, access to her Government computer. That individual then accessed
 prohibited sites without the employee’s knowledge. Based on information developed by the OIG and
 presented to the Corporation, management took administrative action against the employee.

 Violation of Grant Provisions and Nepotism (06-040)

 A Corporation employee reported an allegation that members at a VISTA site were performing
 service outside the scope of the grant, and that several of the members were related to the executive
 director in violation of the grant’s nepotism provision. The investigation disclosed that the executive
 director violated the grant’s nepotism provision when she enrolled three relatives and two members of
 her immediate family in the VISTA program. There was no evidence that the members had not
 performed VISTA service as required. Investigation also disclosed that another member had been
 incarcerated for a period of 30 days, during which period he continued to receive his VISTA living
 allowance payments. Based on information developed by the OIG and presented to the Corporation,
 management terminated the members and did not renew the grant.

Highlighted Ongoing Investigative Activity
 False Statements / Theft of Program Funds (07-004)

 A State commission reported an allegation that AmeriCorps members had falsified the service hours
 claimed on their time sheets and that program officials had forged signatures to partnership
 agreements with the sites where the members allegedly served. Investigation found evidence that
 program officials and AmeriCorps members submitted fraudulent partnership agreements, claiming
 members were serving at the partner sites. Partner site officials denied signing the agreements and
 reported that AmeriCorps members had not served as reported. This allowed the members to
 receive living allowances and earn education awards to which they were not entitled. Loss to the
 Government is $53,431. The U.S. Department of Justice accepted this investigation on March 2,
 2007, and is pursuing civil recovery.

 Misuse of Position (07-007)

 Corporation management reported an allegation that a Corporation employee was suspected of
 fraudulently enrolling individuals in a Corporation VISTA program, thus allowing the individuals to
 receive a living allowance and benefits without performing the required service. Investigation found
 evidence that the employee acted outside the scope of her authority by enrolling and assigning
 individuals in a Corporation program without the grantee’s authorization. The investigation also
 showed that the employee allowed one member to serve for a period of time at the Corporation state
 office. This service could have allowed the member access to documents and personal identification


 26                                                           October 1, 2006 – March 31, 2007
                                                            Investigations Section

data on fellow members enrolled in that State. There was no evidence that the members did not
serve. On January 23, 2007, the results of the investigation were provided to Corporation
management. Management’s response is pending.

False Statements / Theft (07-012)

A program director reported that an AmeriCorps member had claimed fraudulent service hours.
Investigation found evidence that the member had falsified her time sheets when she claimed service
hours she had not performed. Loss to the Government is $7,375. The U.S. Department of Justice
accepted this investigation on March 2, 2007, and is pursuing civil recovery.

Theft of Program Funds (07-017)

Corporation management reported that a project director of a Senior Corps program misapplied
Corporation program funds. Investigation found evidence that the project director embezzled more
than $25,000 in Federal program funds through unauthorized salary payments and credit card
purchases and payments. OIG Subpoenas have been issued for financial records. The investigation
is continuing.

Misapplication of Program Funds (07-018)

Corporation management reported that a director of a Senior Corps program misapplied Corporation
program funds. Investigation found evidence that the project director improperly reimbursed the
program’s volunteers a total of $7,775.10 for service-related mileage costs they had not incurred.
The investigation is continuing.

Child Care Fraud (07-022)

Proactive efforts by the OIG disclosed evidence that a former AmeriCorps member fraudulently
received $10,230 in AmeriCorps*Care child care subsidies. Investigation disclosed evidence that the
former member fraudulently received AmeriCorps*Care program funds while receiving State child
care subsidies during the same period. This investigation did not meet the local U.S. Attorney’s
Office’s monetary threshold for prosecution. This matter was accepted for criminal prosecution on
January 25, 2007, by the local States Attorney General’s Office.

Child Care Fraud (07-023)

Proactive efforts by the OIG disclosed evidence that a former AmeriCorps*VISTA member
fraudulently received $3,593 in VISTA*Care child care subsidies. Investigation disclosed evidence
that the former member fraudulently received VISTA*Care program funds while receiving State child
care subsidies during the same period. This investigation did not meet the local U.S. Attorney’s
Office’s monetary threshold for prosecution. This matter was accepted for criminal prosecution on
January 25, 2007, by the local States Attorney General’s Office. On March 19, 2007, the former
member entered a guilty plea and is pending sentencing.

Child Care Fraud (07-024)

Proactive efforts by the OIG disclosed evidence that a former AmeriCorps*VISTA member
fraudulently received $4,840 in VISTA*Care child care subsidies. Investigation disclosed evidence
that the former member fraudulently received VISTA*Care program funds while receiving State child
care subsidies during the same period. This investigation did not meet the local U.S. Attorney’s
Office’s monetary threshold for prosecution. This matter was accepted for criminal prosecution on
January 25, 2007, by the local States Attorney General’s Office. On March 19, 2007, the former
member entered a guilty plea and is pending sentencing.

Child Care Fraud (07-025)



October 1, 2006 – Mach 31, 2007                                                             27
Investigations Section

 Proactive efforts by the OIG disclosed evidence that a former AmeriCorps*VISTA member
 fraudulently received $3,535 in VISTA*Care child care subsidies. Investigation disclosed evidence
 that the former member fraudulently received VISTA*Care program funds while receiving State child
 care subsidies during the same period. This investigation did not meet the local U.S. Attorney’s
 Office’s monetary threshold for prosecution. This matter was accepted for criminal prosecution on
 January 25, 2007, by the local States Attorney General’s Office.

 Child Care Fraud (07-026)

 Proactive efforts by the OIG disclosed evidence that a former AmeriCorps member fraudulently
 received $35,202.72 in AmeriCorps*Care child care subsidies. Investigation disclosed evidence that
 the former member fraudulently received AmeriCorps*Care program funds while receiving State child
 care subsidies during the same period. This investigation did not meet the local U.S. Attorney’s
 Office’s monetary threshold for prosecution. This matter was accepted for criminal prosecution on
 January 25, 2007, by the local States Attorney General’s Office.

 Misapplication of Program Funds (07-027)

 An allegation was reported to the OIG Hotline that an executive director of a Senior Corps program
 misapplied program funds. Investigation disclosed evidence that the former executive director inflated
 program costs allowing her to divert more than $55,000 in program funds for her personal use and for
 non-grant expenditures. The investigation is continuing jointly with local law enforcement personnel.

 False Statements / Theft (07-029)

 A program director reported that two AmeriCorps members had claimed fraudulent service hours on
 their time sheets. Investigation found evidence that the two members had falsified their time sheets
 when they claimed service hours that had not performed. Loss to the Government is $12,852.96.
 This investigation did not meet the local U.S. Attorney’s Office’s monetary threshold for prosecution.
 This matter is pending referral to Corporation management for recovery under the Civil Remedies
 Act.

 Misapplication of Program Funds / False Statements (07-030)

 An allegation was reported to the OIG Hotline that an executive director of an AmeriCorps program
 was submitting fraudulent service hour data for its members. Investigation disclosed evidence that
 the executive director was supplementing his employees’ salaries with AmeriCorps grant funds and
 was falsely certifying his employees’ eligibility for education awards. The executive director also
 fraudulently inflated AmeriCorps members’ service hours and gave members credit for service hours
 performed outside the scope of the grant. Loss to the Corporation is more than $130,000. The
 investigation is continuing.

 False Statements / Theft (05-048)

 The OIG investigated an allegation that a former AmeriCorps member, who later served as the
 program director, failed to disclose on his application that he had a criminal conviction. The
 investigation found evidence that the individual was allowed to serve in a school tutoring program
 after he omitted his previous name and falsified his personal information forms by claiming that he
 had never been convicted of a criminal offense. The investigation disclosed that the individual was a
 habitual sex offender and had legally changed his name after being released from prison. This
 deception, if known, would have disqualified him from serving with children as a member or as the
 program director. This deception also allowed the individual to fraudulently receive more than
 $106,000 in Federal program funds to which he was not entitled. The U.S. Department of Justice
 accepted this investigation for criminal prosecution.

 Upon a guilty plea, the former program director was sentenced on December 14, 2006, and received
 four months of confinement, was ordered to pay restitution in the amount of $25,591.79; assessed

 28                                                          October 1, 2006 – March 31, 2007
                                                              Investigations Section

$300 in court fees, ordered to serve three years of supervised probation upon release and forfeited
an education award in the amount of $4,725. The OIG forwarded a recommendation to consider
debarment to Corporation management.



Misapplication of Program Funds (06-021)

A State commission reported an allegation that an AmeriCorps site supervisor was withholding
members’ living allowances. The investigation found evidence that the site supervisor had enrolled
her day care center employees in the AmeriCorps program to supplement their salaries with program
funds. Loss to the Corporation is in excess of $100,000. The U.S. Department of Justice accepted
this investigation on May 17, 2006, for criminal prosecution.

Misapplication of Program Funds (06-029)

Corporation management reported that a director of a Senior Corps program misapplied Corporation
program funds. Investigation found evidence that the director wrongfully paid volunteer stipends to
volunteers after he had placed them on administrative leave, claiming that he was unable to find
service assignments for the volunteers. In addition, the director falsified his wife’s time sheets (she
was enrolled as a volunteer), allowing her to receive funds to which she was not entitled. Loss to the
Corporation is more than $250,000. The U.S. Department of Justice accepted this investigation on
January 12, 2007, for civil recovery and, on March 13, 2007, for criminal prosecution.

Child Care Fraud / Violation of Program Policy (06-030)

Corporation management reported that a former VISTA member had fraudulently received
VISTA*Care child care subsidies. Investigation disclosed evidence that a former VISTA member
fraudulently enrolled in the VISTA*Care program while receiving State child care subsidies during the
same period. Further investigation disclosed that the former member was employed while enrolled in
the VISTA program, a violation of VISTA policy. Loss to the Corporation is $20,683.76. The U.S.
Department of Justice accepted this investigation on February 27, 2007, for criminal prosecution.

Child Care Fraud (06-045)

Proactive efforts by the OIG disclosed evidence that a former AmeriCorps member fraudulently
received $15,861 in AmeriCorps*Care child care subsidies. Investigation disclosed evidence that the
former member fraudulently received AmeriCorps*Care program funds while receiving State child
care subsidies during the same period. This investigation did not meet the local U.S. Attorney’s
Office’s monetary threshold for prosecution. This matter was accepted for criminal prosecution on
November 22, 2006, by the local States Attorney General’s Office. On March 19, 2007, the former
member entered a guilty plead and is pending sentencing.

Child Care Fraud (06-046)

Proactive efforts by the OIG disclosed evidence that a former AmeriCorps member fraudulently
received $1,100 in AmeriCorps*Care child care subsidies. Investigation disclosed evidence that the
former member fraudulently received AmeriCorps*Care program funds while receiving State child
care subsidies during the same period. This investigation did not meet the local U.S. Attorney’s
Office’s monetary threshold for prosecution. This matter was accepted for criminal prosecution on
November 22, 2006, by the local States Attorney General’s Office.

Child Care Fraud (06-047)

Proactive efforts by the OIG disclosed evidence that a former AmeriCorps member fraudulently
received $3,593 in AmeriCorps*Care child care subsidies. Investigation disclosed evidence that the
former member fraudulently received AmeriCorps*Care program funds while receiving State child

October 1, 2006 – Mach 31, 2007                                                                 29
Investigations Section

 care subsidies during the same period. This investigation did not meet the local U.S. Attorney’s
 Office’s monetary threshold for prosecution. This matter was accepted for criminal prosecution on
 November 22, 2006, by the local States Attorney General’s Office.



 Theft of Program Funds (06-051)

 Corporation management reported to the OIG that a VISTA member alleged that she was required to
 reimburse part of her living allowance to her site supervisor. Investigation disclosed evidence that the
 executive director and former site supervisor fraudulently documented two members’ service when, in
 fact, the members were employed by the program. The two employees also received VISTA living
 allowances to which they were not entitled. Loss to the Corporation is $66,988.99. The U.S.
 Department of Justice accepted this investigation on August 29, 2006, for criminal prosecution. The
 OIG forwarded a recommendation to consider debarment to Corporation management.

 Theft of Program Funds (06-014)

 An allegation was reported to the OIG Hotline that a VISTA program executive director enrolled
 employees in the VISTA program to supplement the employees’ salaries and benefits. The
 investigation found that the executive director and program director conspired to supplement the
 salaries of two full-time employees and one part-time employee of the grantee with VISTA funds.
 Corporation management has terminated the members’ service. Loss to the Corporation is
 $53,380.92. The U.S. Department of Justice accepted this investigation on April 20, 2006, and is
 pursuing civil recovery.

 Theft of Program Funds (05-007)

 A State commission reported an allegation to Corporation management that an AmeriCorps grant
 recipient had misapplied Corporation program funds. The investigation found evidence that the
 AmeriCorps program’s director conspired with her cousin to defraud the U.S. Government when they
 prepared and submitted a fraudulent rental agreement in order to divert Corporation funds to cover
 the grantee’s share of program operating costs. The U.S. Department of Justice accepted this
 investigation on February 24, 2007, for criminal prosecution. The OIG forwarded a recommendation
 to consider debarment to Corporation management.

 Theft of VISTA Checks (04-017)

 Corporation management reported that an unknown person intercepted, forged and cashed two
 AmeriCorps*VISTA stipend checks totaling $1,248.76 from the U.S. Postal Service. The investigation
 disclosed that a postal employee cashed both checks. In February 2004, the OIG contacted the local
 U.S. Postal Inspection Service for assistance. Based on the information developed by the OIG, the
 U.S. Postal Inspection Service identified a postal employee as a suspect and also identified additional
 non-Corporation checks that had been similarly diverted by that individual. In March 2006, U.S.
 Postal Investigators obtained a confession from the employee and the individual was subsequently
 terminated. The U.S. Department of Justice accepted this investigation on January 17, 2007, for
 criminal prosecution.

 Theft of Program Funds (01-005)

 The OIG investigated an allegation that a Senior Corps grantee used Corporation funds for purposes
 other than support of the grant. The grantee acknowledged receiving more than $300,000 in
 Corporation program funds, which it used for purposes other than support of the grant. The U.S.
 Department of Justice initially accepted this case for criminal prosecution on November 26, 2001. On
 September 4, 2002, the matter was transferred to its Civil Section for civil recovery under the False
 Claims Act. In March 2007, the Assistant United State’s Attorney handling this matter reported that



 30                                                           October 1, 2006 – March 31, 2007
                                                             Investigations Section

she was negotiating an agreement with the defense counsel to suspend the statue of limitations
period. The OIG forwarded a recommendation to consider debarment to Corporation management.

Theft of Program Funds (02-007)

A State commission reported an allegation that a program executive director and a chief financial
officer misapplied $233,212.07 in program funds to cover non-program expenditures and bonuses.
The investigation found evidence supporting this allegation. Initially, the Federal Bureau of
Investigation was the lead investigative agency but, due to other commitments, it was unable to
pursue this matter fully. The U.S. Department of Justice has declined to prosecute this matter in
favor of local prosecution. The local prosecutor accepted this matter on December 19, 2003, for
criminal prosecution.

Theft of Program Funds (05-023)

A State commission employee reported that a former AmeriCorps grant recipient had informed her
that, during a post-program audit, it was discovered that the grantee’s former program director had
embezzled AmeriCorps program funds. Loss to the Corporation is in excess of $177,000. A joint
investigation was conducted with the Federal Bureau of Investigation, which served as the lead
investigative agency, and the Internal Revenue Service. The U.S. Department of Justice accepted
this investigation for prosecution. The individual entered a guilty plea on November 14, 2005, and
sentencing is still pending.

Theft of Program Funds (05-041)

An allegation was reported to the OIG Hotline that a VISTA project director enrolled her employees in
the VISTA program to supplement the employees’ salaries and benefits. The investigation found
evidence that the project director conspired with her husband to fraudulently enroll their private
business employees in the VISTA program to supplement their salaries and benefits with Federal
program funds. Loss to the Government is $37,933.75. The U.S. Department of Justice accepted
this investigation on September 22, 2005, and is pursuing civil recovery.

Allegation of Education Award Fraud (05-049)

An OIG program review disclosed that an AmeriCorps grant recipient had falsified its members'
education award certifications. The investigation found evidence that the members’ time sheets
contained unauthorized service hours and did not match the total hours certified by program officials
to the Corporation to establish the members’ education award eligibility. Loss to the Government is
more than $250,000. The U.S. Department of Justice accepted this investigation February 27, 2006,
and is pursuing civil recovery.

Theft of Program Funds (05-054)

Corporation management reported an allegation that a grant recipient had misapplied Corporation
program funds. The investigation found evidence that the grantee’s executive director diverted
Corporation funds to cover non-grant expenditures and operating costs. The U.S. Department of
Justice accepted this investigation on September 27, 2005, and is pursuing civil recovery.




October 1, 2006 – Mach 31, 2007                                                               31
                             Review of Legislation and
                                          Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The Office of Inspector
                   General reviews legislation and regulations to determine
                   their impact on the economy and efficiency of the
                   Corporation’s administration of its programs and
                   operations.        It   also    reviews    and    makes
                   recommendations on the impact that legislation and
                   regulations may have on efforts to prevent and detect
                   fraud, waste and abuse in Corporation programs and
                   operations. The Office of Inspector General draws on
                   its experience in audits and investigations in making its
                   recommendations.




October 1, 2006 – March 31, 2007                                       33
                                 Review Of Legislation And Regulations


Criminal Background Checks
 Based on the results of its investigations and audits, the Office of Inspector General has
 recommended that the Corporation strengthen and expand its criminal background check
 requirements for volunteers and program officials who have contact with children, the elderly and
 other vulnerable persons.

 On October 26, 2006, the Corporation issued for public comment in the Federal Register a proposed
 regulation that would require grantees in the AmeriCorps, Senior Companion, and Foster
 Grandparent programs to conduct criminal history checks on all incoming participants and grantee
 staff in those programs. Specifically, the draft rule requires a grantee to search the National Sex
 Offender Registry (NSOR) maintained by the U.S. Department of Justice, and the criminal registry of
 the state in which the program operates (and if different, the state in which an applicant resides), for
 all applicants and grantee staff who would have recurring access to children, the disabled, and
 persons 60 and older.

 Individuals found to be on the NSOR are to be deemed “unsuitable” for a Corporation-funded
 position; the eligibility of individuals found on the state criminal registry is left for the program to
 decide, but the regulation requires that the program document that they considered the background
 check result prior to selection.

  “Children” are defined under the rule as “individuals 17 years of age or younger” and “recurring
 access” is defined as “the ability on more than one occasion to approach, observe, or communicate
 with an individual, through physical proximity or other means, including but not limited to, electronic or
 telephonic communication.”

 The comment period on the proposed rule ended on December 26, 2006. The Corporation is
 currently reviewing more than 70 comments from interested persons and will make revisions as it
 deems appropriate before submitting the regulation to OMB as a final rule. The OIG will continue to
 monitor this rule-making process.

Program Fraud Civil Remedies Act
 In a prior reporting period, the Office of Inspector General recommended to the Corporation that it
 promulgate regulations to implement the Program Fraud Civil Remedies Act (PFCRA). This Act,
 enacted in 1986, provides Federal agencies with an administrative means to recoup Federal funds of
 less than $150,000 that were unlawfully obtained by persons through false claims or false statements.

 In a prior reporting period, the Corporation published for public comment in the Federal Register a
 draft regulation to implement the PFCRA. On November 20, 2006, the Corporation published as final
 its version of this regulation in the Federal Register. The rule will be codified in 45 C.F.R. § 2554.

 Significant features of the rule are that it designates the Inspector General as the “investigator” and
 the Corporation General Counsel as “the reviewing official” or the prosecutor in administrative actions
 for false claims or statements resulting in damages of less than $150,000. It also holds liable such a
 persons who “knows or has reason to know” that his/her claim or statement submitted to the
 Corporation is false, for up to $5,000 per claim or statement, and double damages that result there
 from.

 The rule further provides for trial-type proceedings before an administrative law judge and a
 minimum due process for the accused, including reasonable notice and opportunity to be heard,
 rights to discovery and cross examinations in an administrative hearing setting, and rights of appeal
 from any adverse judgments to the Corporation’s Chief Executive Officer and the Federal courts.




 October 1, 2006 – Mach 31, 2007                                                                   35
                               Review Of Legislation And Regulations

E-Mail And Other Records Retention Policies
 As noted by the Office of Inspector General in the three previous semiannual reports, the Corporation
 has no established policy for record retention and management, such as instruction to employees on
 what should constitute a “record,” or how and where official records should be maintained, as
 required by 31 U.S.C. §3101-02. Moreover, several OIG investigations during this period revealed
 that the Corporation lacks the ability to retrieve e-mail communications that qualify as a government
 record, as required by 36 C.F.R. §1234.24, Standards for Managing Electronic Records. This
 regulation states that agencies should account for email records, either by creating an electronic
 record-keeping system according to specified criteria, or, “[i]f the electronic mail system is not
 designed to be a record-keeping system, agencies must instruct staff on how to copy Federal records
 from the electronic mail system to a recordkeeping system.”

 In April 2006, the Corporation solicited proposals from consultants with expertise in Federal records
 management for a contract to review its current record-keeping systems, draft a model record
 retention policy for the Corporation, and provide a report on possible commercial off-the-shelf
 solutions for management and retention of electronic mail. In October 2006 the Corporation awarded
 a contract for this endeavor to Zimmermann and Associates. The contract is ongoing and is in the
 staff interview and systems analysis stage. The OIG will continue monitoring this issue.




 36                                                         October 1, 2006 – March 31, 2007
                                             Statistical and
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




October 1, 2006 – March 31, 2007                                    37
                                                           Performance Information


I.      Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.

     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                33

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses      Throughout
                   and deficiencies found in the administration of Corporation
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         43
                   has not been completed

      5 (a)(4)     Matters referred to prosecutorial authorities                        21

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period

      5 (a)(6)     List of audit reports by subject matter showing dollar value of      13
                   questioned costs, unsupported costs and the dollar value of
                   recommendations that funds be put to better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      40
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      41
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        42
                   which no management decision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspector            18
                   General disagrees




 October 1, 2006 – Mach 31, 2007                                                              39
Performance Information


II.          Reports With Questioned Costs


                    Report Category                    Number Questioned              Unsupported
                                                                          (Dollars in thousands)
      A. Reports for which no management decision        22             $3,753                     $1,416
         had been made by the commencement of the
         reporting period

      B. Reports issued during the reporting period      6               1,192                       733

      C. Total Reports (A + B)                           28              4,945                      2,149

      D. Reports for which a management decision         11              1,220                       339
         was made during the reporting period

          I. Value of disallowed costs                                     281                       229

          II. Value of costs not disallowed                                939                       110

      E. Reports for which no management decision        17             $3,725                     $1,810
         had been made or for which OIG is reviewing
         the management decision at the end of the
         reporting period (C minus D) *
      F. Reports with questioned costs for which no      3                $312                       $32
         management decision or proposed
         management decision was made within six
         months of issuance
      *   Proposed Management Decisions under OIG        10             $2,418                     $1,192
          review




  40                                                          October 1, 2006 – March 31, 2007
                                                           Performance Information


III.         Reports With Recommendations That Funds
             Be Put To Better Use


                      Report Category                    Number        Dollar Value
                                                                  (Dollars in thousands)
       A. Reports for which no management decision         11             $3,001
          had been made by the commencement of
          the reporting period

       B. Reports issued during the reporting period       5               $469

       C. Reports for which a management decision          6              $2,601
          was made during the reporting period

           i. Value of recommendations agreed to by                       $2,492
           management

           ii. Value of recommendations not agreed to                      $109
           by management

       D. Reports for which no management decision         10              $870
          had been made by the end of the reporting
          period or for which the OIG is reviewing the
          management decision at the end of the
          reporting period *

       E. Reports with recommendations that funds          0                $0
          be put to better use for which no
          management decision or proposed
          management decision was made within six
          months of issuance
       * Proposed Management Decisions Under               5               $401
          OIG review




  October 1, 2006 – Mach 31, 2007                                                          41
Performance Information


IV.       Summary of Audits With Overdue Management Decisions



                                                      Federal    Mgmt.           Status at End of
      Report                                          Dollars   Decision         Reporting Period
      Number                  Title                  Questioned   Due               (03/31/07)
                                                                             In October 2006 the
               Audit of Kansas City Foster                                   Corporation stated it would
       06-24                                           14,004     09/20/06
               Grandparent Program                                           revise its Proposed
                                                                             Management Decision
                                                                             A Proposed Management
               Audit of Louisville Metro Community
       06-29                                           21,612     11/27/06   Decision has not been
               Action Partnership
                                                                             provided to the OIG

               Audit of Kentucky Department for                              A Proposed Management
       06-31   Mental Health and Mental                276,238    01/18/07   Decision has not been
               Retardation Services FGP                                      provided to the OIG

                              Total                   $311,854




 42                                                        October 1, 2006 – March 31, 2007
                                                               Performance Information


V.           Reports Described in Prior Semiannual Reports
             Without Final Action


     Report                                                                 Date            Final
     Number                              Title                             Issued        Action Due

       05-17                                               1               07/07/05         07/07/06
                  Audit of Louisiana Serve Commission

       06-15      Follow-Up Review and Assessment of the                   01/31/06         01/31/07
                  Corporation's Alternative Personnel System
       06-05      Audit of Grants Awarded to the Puerto Rico               02/13/06         02/13/07
                  State Commission on Community Service and
                  Social Action

       06-10      Audit of Grants Awarded to YouthBuild USA,               02/15/06         02/15/07
                  Inc.
       06-25      Audit of Grants Awarded to the Illinois                  02/22/06         02/22/07
                  Commission on Volunteerism and Community
                  Service

                  Audit of Senior Corps Grants Awarded to the
       06-24                                                               03/20/06         03/20/07
                  City of Kansas City


 1
     The Corporation extended the resolution period due to disruptions caused by the 2005 hurricanes.




 October 1, 2006 – Mach 31, 2007                                                                        43
      Learn More About OIG
       Investigations And
         Audits With Our
     Downloadable Brochures




                         Subscribe To Our Newsletter,
                          “For Your Inspection” (FYI)



                        For More On The Role And Work
                          Of The Inspectors General,
                                    Watch
                        “The Inspectors General Story”
                         Featuring Senator John Glenn


All These Publications Can Be Found On Our Web Site
                 WWW.CNCSOIG.GOV
